IN THE SUPREME COURT OF THE UNITED STATES

No. 20-1077

AMAZON.COM, INC., and
AMAZON LOGISTICS, INC.,

Petitioners,
Vv.
BERNARD WAITHAKA,
Respondent.

CERTIFICATE OF SERVICE

I, Cory L. Andrews, counsel for amici curiae and a member of the Bar of this
Court, certify that on this 7th day of May, 2021, three copies of the amicus brief were
mailed to the following:

David B. Salmons

MorGan, Lewis & Bockius LLP
1111 Pennsylvania Avenue, NW
Washington, DC 20004
david.salmons@morganlewis.com
Counsel for Petitioners

Shannon Liss-Riordan
LICHTEN & Liss-RIORDAN, PC
729 Boylston Street

Suite 2000

Boston, MA 02116
sliss@Urlaw.com

Counsel for Respondent
T also certify that a copy of the amicus brief was electronically mailed to each

counsel listed above, and that all parties required to be served have been served.

Dated: May 7, 2021

ory L. Andrews

WASHINGTON LEGAL FOUNDATION
2009 Massachusetts Ave., NW
Washington, DC 20036

(202) 588-0302
candrews@wlf.org

Counsel for Amici Curiae
